                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




         A proactive review of PI summer salaries indicated that a PI' received combined funding for four
         summer months of salary from two separate grants that overlapped2. We wrote to the institution
         to request records to show how much summer salary was paid to the PI during those years when
         more than two summer months of salary was provided in NSF grants.

          The institution provided documentation to our office which showed that the university paid one
          month of summer salary from each grant during the two years when a total of four summer months
          salary was budgeted. This resolves the matter and accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
